HHS/OIG, Audit -""Review of Title IV-E Administrative and Training Costs Claimed by the Delaware Department of Services for Children, Youth and Their Families,"(A-03-03-00562)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Floridas Accounts Receivable System for Medicaid Provider Overpayments, (A-04-03-06003)
October 18, 2005
Complete Text of Report is available in PDF format (862 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was part of a multistate audit.  Our objective was to determine whether the State reported Medicaid provider reclaiming adjustments and overpayment adjustments in accordance with Federal requirements.  We found that 41 of 42 reclaiming adjustments that we reviewed, totaling $57 million ($31.9 million Federal share), were not reported in accordance with Federal requirements.  Additionally, the State did not report 43 overpayment adjustments, totaling $25.7 million ($14.5 million Federal share), within 60 days of discovery).
We recommended that the State:  (1) refund to the Federal Government $14.5 million, representing the outstanding balance of the $57 million ($31.9 million Federal share) in improper reclaiming adjustments; (2) establish and implement procedures to ensure that improper reclaiming adjustments are not included on the CMS-64; (3) provide training to staff; (4) centralize collection activity and add staff; (5) ensure that future overpayments are reported timely; and (6) identify overpayments that were handled incorrectly following the audit period and refund any money due to the Federal Government.  In response, the State generally disagreed with our findings and recommendations.